   LEGAL SERVICES
     CORPORATION


          Office of
     Inspector General




Semiannual Report t o the Congress
April 1,2007- September 30,2007
                                                       April 1, 2007 - September 30, 2007



     TO THE BOARD OF DIRECTORS OF THE LEGAL SERVICES
      CORPORATION AND THE UNITED STATES CONGRESS

            A MESSAGE FROM THE ACTING           INSPE/CTOR    GENERAL


This Semiannual Report sets forth the significant activities and accomplishments of
the Office of lnspector General (OIG) for the period April 1, 2007 through
September 30, 2007. It reflects our overall efforts to improve the effectiveness and
efficiency of the Legal Services Corporation (LSC), and to protect the operations of
LSC and its grant recipients from fraud and abuse. It also details our continuing
efforts to oversee the system of routine monitoring of compliance with the
restrictions on the use of LSC funds by grantees.

This reporting period finds the OIG going through a change of leadership. Kirt West
left his position as the lnspector General (IG) in August to accept a position in the
private sector. The LSC Board of Directors is moving quickly to select a permanent
replacement. We look forward to welcoming the next lnspector General soon.

Among our significant activities during this reporting period, we issued our report on
the Office of Program Performance as part of our continuing broad review of LSC's
oversight of grantees. We are nearing completion of our work on the Office of
Information Management, the final major LSC component to be reviewed in this
effort. We also transmitted the Fiscal Year 2006 Financial Statement Audit to the
Board of Directors. In addition, the OIG issued eight Audit Service Review (ASR)
reports. We opened 28 new investigations and closed 15 investigations. A joint
OIG audit and investigation team is continuing its work on a significant financial
fraud case at one of LSC's grantees.

The OIG continues its involvement in two important litigation matters. First, the
OIG, in conjunction with the U. S. Department of Justice, is pursuing a subpoena
enforcement action in support of its ongoing investigation of California Rural Legal
Assistance, Inc. Second, the OIG is assisting the Office of Legal Affairs and outside
counsel in the defense of a lawsuit challenging LSC's program integrity regulation.

The Government Accountability Office (GAO) issued its report on corporate
governance and accountability in August 2007. The draft report on GAO's work on
grants management at LSC is due out shortly. The OIG will, in accordance with the
IG Act, avoid duplicating the work of GAO.
                                                       April 1, 2007 - September 30, 2007


I wish to express my appreciation to the Board of Directors, LSC management, and
to the Congress, for their support and cooperation during this period of transition. I
will continue to work to ensure that the OIG is fulfilling its mission to help improve
the effectiveness and efficiency of the Corporation, and to prevent and detect fraud,
waste, and abuse.

Sincerely,



Ronald D. Merryman Y
Acting Inspector General
September 30,2007
                                                                      April 1. 2007 .September 30. 2007



                               TABLE OF CONTENTS


OFFICE OF INSPECTOR GENERAL OVERVIEW ......................... 1

AUDITS ........................................................................................... 3
 Interim Report on the Office of Program Performance ..................3
 Fiscal Year 2006 Corporate Audit ................................................. 3
 Audit Service Reviews .................................................................. 4
 Review of Grantees' Annual Audit Reports................................... 4
 Work In Progress .......................................................................... 4
   Grantee Fraud ........................................................................... 4
   Audit of the Office of Information Management.......................... 5
   Audit of Puerto Rico Legal Services, Inc.................................... 5
   Review of OIG Internal Controls ................................................ 5

INVESTIGATIONS ..........................................................................           7
   OIG Investigation of Potential False Statements to Congress ....7
   Compliance Investigations Initiative ............................................                7
   IG Fraud Alert Issued..................................................................          8
   PersonalIPrivate Information Survey .......................................... 8
   Investigative Policy Manual Updated .......................................... 8
   Hotline ........................................................................................ 8

LEGAL REVIEWS ......................................................................... I 0
  Review of Proposed Legislation. Regulations and Policy .........10
  Subpoena Enforcement Activities .............................................         10
  Assisting in Litigation Against LSC ...........................................       10

AUDIT REPORTS ISSUED for the Period Ending
September 30. 2007 ...................................................................... II

AUDIT SERVICE REVIEWS ISSUED ........................................... 12

TABLE I .   Audit Reports Issued with Questioned Costs
for the Period Ending September 30. 2007 ....................................
                                                                           13

TABLE II -Audit Reports Issued with Funds to Be Put to Better Use
for the Period Ending September 30. 2007 ....................................14

TABLE 111 .Index to Reporting Requirements of
the Inspector General ................................................................... 15
                                                       April 1, 2007 - September 30, 2007


             OFFICE OF INSPECTOR GENERAL OVERVIEW

The LSC Office of lnspector General operates under the lnspector General Act of
1978, 5 U.S.C. App. 3. In 1988, Congress amended the IG Act and required LSC
and about 30 other, mostly smaller, federally funded entities to establish
independent Offices of lnspector General.

The OIG has two principal missions: (I) to assist management in identifying ways to
promote economy and efficiency in the activities and operations of LSC and its
grantees; and (2) to prevent and detect fraud and abuse. Thus, the OIG assists
management in fostering effective operations, in identifying and overcoming
obstacles to good program management, and in preventing future problems. The
OIG must also identify and report on current problems.

The OIG's primary tool for achieving these missions is objective and independent
fact-finding, performed through financial, performance and other types of audits,
evaluations and reviews, as well as through investigations into allegations of
wrongdoing. Its fact-finding activities enable the OIG to develop recommendations
to LSC, Congress and grantee management for actions or changes that will correct
problems, better safeguard the integrity of funds, improve procedures, or otherwise
increase the economy, efficiency and effectiveness of LSC programs.

The OIG is also tasked with ensuring the quality of audits of LSC and its grantees
that are conducted by independent public accountants, and with reviewing proposed
and existing regulations and legislation affecting the operations and activities of
LSC and the programs it funds.

In addition, since the 1996 Congress, LSC's annual appropriation has directed that
an additional tool for monitoring grantee compliance with legal requirements is to be
the annual grantee audits conducted by independent public accountants, under
guidance developed by the OIG. Congress has also specified that the OIG has
authority to conduct its own reviews of grantee compliance.

The OIG is headed by the lnspector General who reports to and is under the
general supervision of the LSC Board of Directors. The IG has broad authority to
manage the OIG, including setting OIG priorities and activities, and to hire OIG
personnel, consultants and experts.

To ensure the objectivity of the IG, the IG Act grants the LSC IG the independence
to determine what reviews are performed; to gain access to all documents needed
for OIG reviews; to publish findings and recommendations based on OIG reviews;
and to report OIG findings and recommendations to the LSC Board of Directors and
to Congress. The IG Act also prohibits LSC from assigning to its IG any of LSC's
own "program operating responsibilities." This means that the OIG does not perform
functions assigned to LSC by the Legal Services Corporation Act, 42 U.S.C.
                                                        April 1, 2007 - September 30,2007


52996-29961, other than those transferred to the OIG under the IG Act, and those
otherwise assigned by Congress, for example in the FY 1996 Appropriations Act.

The IG must report serious problems to the LSC Board of Directors and must also
report to appropriate law enforcement authorities when, through audit, investigation,
or otherwise, the IG has found that there are reasonable grounds to believe that a
crime has occurred. The OIG is not an "arm" of the Congress, as is the Comptroller
General, but is required by law to keep the Congress informed through semiannual
reports and other means. The IG also provides periodic reports to the Board and
management of LSC and occasionally to the Boards of Directors and management
of LSC grantees. Some of these reports will be specific (e.g., an audit of a
particular grantee or an investigation of a theft), while others will be of more general
interest to management.

To be effective, the OIG works cooperatively with the Board and management,
seeks their input prior to choosing topics for OIG review, and keeps them informed
of OIG activities. Within their different statutory roles, the OIG and LSC
management share a common commitment to improving the federal legal services
program and increasing the availability of legal services to the poor.
                                                       April 1, 2007 - September 30, 2007




                                     AUDITS

In this reporting period, the OIG concluded its review of the Office of Program
Performance, part of its ongoing overall review of LSC's grantee oversight program.
The OIG also transmitted the Corporation's FY 2006 Financial Statement Audit to
the Board of Directors. The office continued its focus on conducting Audit Service
Reviews (described below) and identifying risk factors that may require a review of
selected aspects of a grantee's operations. As a member of a joint LSC OIG audit
and investigative team, OIG auditors identified several fraud risk factors for one
grantee. A financial fraud investigation is currently underway. Because of serious
internal control and other management issues, LSC has terminated funding for this
grantee.

Interim Report on the Office of Program Performance

During this period, the OIG issued the final audit report on the Office of Program
Performance (OPP). This audit found that the programs managed by OPP
generally did not duplicate the efforts of other LSC offices providing oversight to
grantees. The OIG detected a system error in the scoring of grant applications that
was corrected during the course of the audit. The system error did not impact LSC
decisions resulting from the scoring of the applications. The OIG found that OPP
could leverage its limited resources and facilitate more frequent oversight coverage
of grantees by restructuring the scope of some on-site grantee program reviews.
Management had taken action to address these findings during the audit so no
recommendations were necessary. The OIG also found that the grantee evaluation
process could be improved by developing more comprehensive measures of
productivity and implementing new procedures to track significant
recommendations.       LSC management accepted and is implementing these
recommendations.

Fiscal Year 2006 Corporate Audit

The Fiscal Year 2006 Financial Statement Audit was issued this reporting period.
The report disclosed no instances of noncompliance that are required to be reported
under Government Auditing Standards. The report noted that there were no
matters involving the internal control over financial reporting and its operation that
were considered to be material weaknesses. The audit firm issued a Management
Letter advising the Board of three matters where internal control and operating
efficiency could be strengthened. These areas pertained to data security, the
accounting and reporting of fixed assets, and documenting certain control
procedures.
                                                         April 1, 2007 - September 30,2007


Audit Service Reviews

The OIG is responsible for the oversight of the Independent Public Accountants
(IPAs) who are selected by the grantees to perform their annual financial and
compliance audits. To fulfill this responsibility, the OIG conducts Audit Service
Reviews (ASRs), which are reviews of the audit documentation of selected lPAs to
ensure that they adequately tested the grantee's compliance with LSC regulations.
During this period, the OIG issued eight ASR reports. We have requested
additional information from some lPAs prior to finalizing nine additional ASR reports.

Review of Grantees' Annual Audit Reports

LSC grantees are responsible for submitting annual financial statement and
compliance audits to the OIG. Each grantee contracts with an IPA to conduct this
audit in accordance with Government Auditing Standards, OMB Circular A-123, and
the LSC OIG Audit Guide for Recipients and Auditors.

During the reporting period, the OIG reviewed 115 IPA audits of grantees with fiscal
years ending December 31, 2006. Of the 115 audit reports reviewed, 80 contained
no findings and 35 contained a total of 81 findings. Of the 81 findings, 22 either had
corrective action already implemented or the OIG determined that the finding was
not significant. The remaining 59 findings were referred to LSC's Office of
Compliance and Enforcement for follow-up action.

Work In Progress

Grantee Financial Fraud

Because of significant internal control issues contained in the annual audit report, a
grantee filed a complaint with LSC claiming that the IPA's work did not meet
standards and that the findings were incorrect. LSC management referred the
complaint to the OIG. The OIG reviewed the issues raised about the IPA's work in
the complaint and visited the IPA and grantee. The team reviewed appropriate
documentation and interviewed the lPAs involved, the leadership of the program,
and the program's chairman of the board. LSC management has taken corrective
action against the grantee because of the control issues identified in the IPA reports
and because of other serious program management concerns.

While addressing the control issues in the complaint, a joint OIG audit and
investigative team found significant fraud indicators. After coordinating with the
Department of Justice which also provides a grant to the program, members of the
joint OIG team traveled to American Samoa in August of 2007. The team was able
to confirm that the internal control issues identified in the audit reports for the most
part still existed. In addition, the team identified many questionable payments to
several staff members. Currently, these payments are being reviewed by the OIG,
                                                       April 1, 2007 - September 30, 2007


other federal agencies, and local authorities. LSC management has terminated
funding for the program.

Audit of the Office of Information Management (OIM)

The work is nearing completion and a draft report on allocating funds will be issued
shortly. A second draft report should be completed in the coming reporting period
and will cover other areas of OIM management related to oversight functions.

Audit of Puerto Rico Leqal Services, Inc.

The OIG initiated a limited scope audit of Puerto Rico Legal Services. The objective
of a limited scope audit is to assess the adequacy of controls in place as they relate
to specific grantee operations and oversight, including program expenditures,
administrative case management and related issues. As part of this audit the OIG
is reviewing selected internal controls throughout the grantee's organization and
conducting applicable testing. Related office policies and procedures are also being
reviewed, as well as any other relevant documents. Our focus is on the central
administrative office and the administrative oversight functions located in specific
branch offices. The OIG is awaiting documentation requested from the grantee
before completing this review.

Review of OIG's Internal Controls

The OIG has initiated a review of its own system of internal controls to ensure that
controls are in place and working properly. When completed, the report will be
published and posted to the OIG's web page.
                                                 April 1, 2007 - September 30,2007


Audit Reports

      Open at beginning of reporting period

      lssued during Reporting Period

      Closed during Reporting Period

      Open at end of reporting period


Recommendations to LSC Grantees

      Pending at beginning of reporting period

      lssued during reporting period

      Closed during reporting period

      Pending at end of reporting period



Recommendations to LSC Manaqement

      Pending at beginning of reporting period

      Issued during reporting period

      Closed during reporting period

      Pending at end of reporting period
                                                         April 1, 2007 - September 30, 2007


                             INVESTIGATIONS

The OIG opened 28 investigations during the reporting period. These included 18
compliance matters (including one survey on privacy information), 7 criminal
investigations, 2 financial risk assessments and 1 administrative investigation. The
compliance investigations included allegations involving matters such as prohibited
political activity, financial eligibility, attorneys' fees, and solicitation. The seven
criminal investigations included embezzlements and thefts of property from LSC
programs. During the reporting period, the OIG closed 15 investigations. These
included four compliance matters, eight criminal investigations, two financial risk
assessments, and one administrative case.

Significant investigative activities noted for this period include the identification of
three grantee employees in an alleged embezzlement scheme to steal grant funds.
This case is being pursued by local prosecutors. In addition, a fraud advisory alert
was issued to all LSC program executive directors in an effort to reduce the loss of
funds to LSC grantees due to employee embezzlement and theft of funds by
preventing and detecting losses dealing with the fraudulent purchase of office
supplies.

The OIG issued and served one Inspector General Subpoena in connection with an
ongoing investigation related to the embezzlement of filing fees collected from
grantee clients.

OIG Investigation of Potential False Statements to Congress

An OIG investigation of a management official disclosed no evidence that the official
actually knew that two submissions to Congress were inaccurate and incomplete at
the time they were transmitted.        The investigation did establish that the two
submissions to Congress contained statements and representations that were false
or misleading and omitted certain facts. The investigation found that LSC did not
sufficiently review information in its possession to ensure accurate statements to
Congress. The investigation is closed.

Compliance Investigations Initiative

OIG investigations has for the past several years focused on investigating
allegations of fraud that could result in criminal prosecutions. Those investigations
were and still are being conducted by staff with extensive criminal investigative
experience. To complement our criminal investigative efforts, the OIG increased its
activities conducting compliance investigations. The OIG recently hired two
experienced attorneys to serve as investigative counsels. The investigative
counsels are responsible for conducting investigations to determine whether there
are violations of the LSC Act, including restrictions imposed by LSC's
appropriations, and or violations of LSC regulations. In their first reporting period,
                                                        April 1, 2007 - September 30, 2007


our investigative counsels opened 18 cases (including the survey on privacy
information), and closed 4 cases. Issues addressed included matters such as
requests for attorneys' fees, solicitation of clients, litigating class action lawsuits,
engaging in political activities, and part-time employees' conducting restricted
activities. The OIG intends to work with and coordinate compliance investigation
activities with LSC counterparts, including the Office of Compliance and
Enforcement and the Office of Program Performance, in order to avoid duplication
of effort and ensure adequate coverage of compliance issues.
IG Fraud Alert Issued

In August 2007, the Acting Inspector General issued a special fraud alert letter to all
Executive Directors in LSC's grantee community, reporting on recent OIG
investigations involving grantee employees. The alert described two long-running
embezzlement schemes in which trusted employees used their office's credit cards
to purchase office equipment and supplies in order to sell them for cash or convert
them to personal use. The alert also contained specific recommendations for
improving internal control and other preventive measures, that grantees can take to
help prevent such occurrences and to protect scarce funds from theft or
embezzlement.

Personal and Private Information Survey

In light of recent events, such as the loss of claims data by federal agencies and the
unintentional disclosure of personally identifiable information, such as social
security numbers and credit card accounts, the OIG determined that it would be
beneficial to LSC management to obtain information regarding the collection,
maintenance and security of personal and private information at LSC. The OIG
Office of Investigations developed, conducted, and is finalizing a survey of LSC
offices to identify personal and private information (PPI) maintained in LSC paper
and electronic records, and to determine what steps have been taken to ensure that
PPI records are being properly collected, maintained, used and disclosed. The OIG
evaluated the adequacy of LSC policies and processes, and will recommend
additional controls to safeguard against inappropriate or unauthorized access to,
use of, or disclosure of personal and private information.

Hotline

The OIG maintains a Hotline for reporting illegal or improper activities by LSC
grantees or corporate staff. For this reporting period, the OIG received 13 Hotline
contacts. Two of these matters were referred to LSC's Office of Compliance and
Enforcement for follow-up; the remaining matters were closed.
                                             April 1, 2007 - September 30,2007


INVESTIGATIVE CASES

     Open at beginning of reporting period

     Opened during reporting period

     Closed during reporting period

     Open at end of reporting period



PROSECUTORIAL ACTIVITIES

     Referred for prosecution

     Accepted for prosecution

     Declined for prosecution



INVESTIGATIVE ACTIVITIES

     Inspector General subpoenas issued
                                                       April 1, 2007 - September 30, 2007




                             LEGAL REVIEWS


Review of Proposed Legislation, Regulations and Policv

Pursuant to the IG's statutory responsibilities, the OIG reviews and, where
appropriate, comments on statutory and regulatory provisions affecting LSC and/or
the OIG, as well as LSC interpretive guidance and internal policies and procedures.

During the reporting period, the OIG reviewed proposed legislation of significance to
lnspectors General, including S.680, a bill that would enhance the independence of
lnspectors General.

Also during the reporting period, the OIG commented to the LSC Board of Directors
regarding its possible initiation of a rulemaking providing additional tools to induce
grantee compliance, historically termed lesser sanctions. This rulemaking had been
among those recommended to the Board by the OIG during the last reporting
period.

Subpoena Enforcement Activities

As previously reported, in March 2007 the U.S. Department of Justice filed on
behalf of the United States and the OIG for summary enforcement of an OIG
subpoena issued in connection with the OIG's ongoing investigation into the
activities of LSC grantee California Rural Legal Assistance (CRLA).

Last year, the OIG issued an interim report on the activities of CRLA, finding
substantial evidence that CRLA had violated federal law by soliciting clients,
working a fee-generating case, requesting attorneys' fees, and associating CRLA
with political activities. The report cited a number of additional serious concerns.
The OIG could not complete its investigation due to CRLA's refusal and/or failure to
provide the OIG certain requested information required to be produced by federal
law and explicit in LSC grant requirements. The OIG issued the subject subpoena
in furtherance of its investigation.

Assisting in Litiqation Aqainst LSC

During this reporting period, the OIG worked closely and cooperatively with
attorneys from the LSC Office of Legal Affairs and LSC outside counsel who are
defending LSC against a legal action brought by an LSC grantee and others
challenging the LSC program integrity regulation, 45 CFR Part 1610. LSC
management and the OIG were involved in the discovery aspect of the litigation
during the reporting period, working cooperatively on giving depositions and
responding to a motion to compel production of documents.
                                                       April 1, 2007 - September 30, 2007



                             AUDIT REPORTS ISSUED
                     for the Period Ending September 30, 2007


Title                                                         Date Issued

Interim Report on Management Oversight of Grantees -          April 5, 2007
Office of Program Performance


FY 2006 LSC Corporate Audit                                   June 6,2007
(Conducted by an independent public accounting firm)
                                                      April 1, 2007 - September 30, 2007


                         AUDIT SERVICE REVIEWS ISSUED
                      for the Period Ending September 30, 2007

                                                                     Date
      Recipient                         IPA                          Issued

Legal Aid of North Carolina       Romeo, Wiggins & Co.
Georgia Legal Services            PJD Group
South Carolina Legal Services     Dixon Hughes PLLC
Blue Ridge Legal Services         Barcalow & Hart
Atlanta Legal Aid Society         Donner, Weiser & Assoc.
Legal Advice & Referral Ctr       Melanson, Heath & Co.
LAF of Metro Chicago              Clifton Gunderson
Lone Star Legal Aid               Mir, Fox & Rodriguez
                                                             April 1, 2007 - September 30, 2007




                                           TABLE I
                        Audit Reports Issued with Questioned Costs
                         for the Period Ending September 30, 2007


                                                         NUMBER
                                                           OF      QUESTIONED    UNSUPPORTED
                                                         REPORTS     COSTS          COSTS

A. For which no management decision has been made by
        the commencement of the reporting period.

B. Reports issued during the reporting period

         Subtotals (A + B)

LESS:

C. For which a management decision was made during
         the reporting period:

         (i) dollar value of recommendations that were
              agreed t o by management

        (ii) dollar value of recommendations that were
              not agreed t o by management

D. For which no management decision had been made by
        the end of the reporting period

E. Reports for which no management decision had been
made within six months of issuance
                                                               April 1, 2007 - September 30, 2007




                                                TABLE II
                    Audit Reports Issued with Funds to Be Put to Better Use
                           for the Period Ending September 30, 2007



                                                               NUMBER OF           DOLLAR
                                                                REPORTS            VALUE

A. For which no management decision has been made by the           1
        commencement of the reporting period.


B. Reports issued during the reporting period


        Subtotals (A   +   B)
LESS:

C. For which a management decision was made during the
        reporting period:

        (i) dollar value of recommendations that were agreed
             to by management
        (ii) dollar value of recommendations that were not
                  agreed t o by management

D. For which no management decision had been made by the
        end of the reporting period


   Reports for which no management decision had been made
   within six months of issuance



  **NOTE: We closed all open recommendations pertaining to the Audit of LSC's
  Space Needs. Management has completed specific actions to address the
  recommendations including benchmarking space needs with other organizations
  and a bottoms-up review of staffing needs.           As indicated in management's
  comments to the audit report, some excess space has been sublet. In addition,
  attempts have been made to sublet additional excess space.                  However,
  management's analysis of the cost to lease additional space, the projected revenue,
  and the need for additional space in the near future as LSC's staffing increases
  indicated it would not be economically feasible to lease additional space at this time.

  Because of the above reasons, no additional savings were realized as a result of
  implementing the recommendations. The OIG considers all recommendations from
  the Audit of LSC's Space Needs closed.
                                                                        April 1, 2007 - September 30, 2007




                                              TABLE Ill
                                 Index to Reporting Requirements
                                     of the lnspector General


    IG ACT
 REFERENCE*                                  REPORTING REQUIREMENT                                  PAGE

Section 4(a)(2)    Review of legislation and regulations                                              11

Section 5(a)(l)    Significant problems, abuses, and deficiencies                                    None

Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and                 None
                   deficiencies

Section 5(a)(3)   Prior significant recommendations on which corrective action has not been          None
                  completed

Section 5(a)(4)   Matters referred to prosecutive authorities                                        None

Section 5(a)(5)   Summary of instances where information was refused                                 None

Section 5(a)(6)   List of audit reports by subject matter, showing dollar value of questioned        None
                  costs (including a separate category for the dollar value of unsupported costs)
                  and funds to be put t o better use

Section 5(a)(7)   Summary of each particularly significant report                                    None

Section 5(a)(8)   Statistical table showing number of audit reports and dollar value of               15
                  questioned costs

Section 5(a)(9)   Statistical table showing number of reports and dollar value of
                  recommendations that funds be put to better use

Section           Summary of each audit issued before this reporting period for which no            None
5(a)(10)          management decision was made by the end of the reporting period

Section           Significant revised management decisions                                          None
5(a)(11)

Section           Significant management decisions with which the Inspector General disagrees       None
5(a)(12)

*Refers to sections in the lnspector General Act of 1978, as amended.
                                           April 1, 2007 - September 30. 2007




           INSPECTOR GENERAL HOTLINE
          To report suspected fraud, waste or abuse:
                    1 800 678 8868 or
                Call:
                     1 202 295 1670
         Or write:     PO Box 3699
                   Washington DC 20027

       You can request that your identity be protected.

LSC employees are protected from reprisals by the Corporation.
